JONES DAY
51 LOUISIANA AVENUE, N.W. • WASHINGTON, D.C. 20001.2113
TELEPHONE: +1.202.879.3939 • FACSIMILE: +1.202.626.1700

Direct Number: (202) 879-7658
yroth@jonesday.com

September 11, 2020
VIA ELECTRONIC FILING
Honorable Scott S. Harris
Clerk of Court
Supreme Court of the United States
One First Street, NE.
Washington, D.0 20543
Re:

National Retirement Fund v. Metz Culinary Management, Inc., No. 19-1336

Dear Mr. Harris:
I am counsel of record for Respondent in the above-captioned case. On August 11, 2020,
I filed Respondent's brief in opposition. On page 15, I observed that other than Petitioner (the
National Retirement Fund) and Amicus"(the New York State Teamsters Conference Pension and
Retirement Fund), it is not clear that any other pension plan had ever attempted to alter actuarial
assumptions retroactively. I further noted that Petitioner and Amicus used the same actuarial
firm (Horizon Actuarial Services), and that both had switched to Horizon from more-established
actuarial firms not long before the retroactive changes to their assumptions. I speculated that
these switches were "likely" undertaken as a way of increasing withdrawal liability.
Amicus's counsel has sent me a letter, confirming that Amicus switched to Horizon from
another firm, but denying that its motive for the switch was to increase withdrawal liability.
Rather, Amicus represents that the switch occurred because their lead actuary left that prior firm
to start Horizon when the prior firm exited the multiemployer business. Amicus's counsel asked
me to clarify the record on this point. Please note that Amicus's motives for its decision to hire
Horizon, whatever_they might have been, do not affect any of the arguments against certiorari
made in Respondent's brief in opposition.
Sincerely,
/s/ Jacob M Roth
Jacob M. Roth

cc:

VED

Ronald Richman

SEP 1 5 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.
ALKHOBAR • AMSTERDAM • ATLANTA • BEIJING • BOSTON • BRUSSELS • CHICAGO • CLEVELAND • COLUMBUS • DALLAS
DUBAI • DUSSELDORF • FRANKFURT • HONG KONG • HOUSTON • IRVINE • JEDDAH • LONDON • LOS ANGELES • MADRID
MEXICO CITY • MIAMI • MILAN • MOSCOW • MUNICH • NEW YORK • PARIS • PITTSBURGH • RIYADH • SAN DIEGO
SAN FRANCISCO • SAO PAULO • SHANGHAI • SILICON VALLEY • SINGAPORE • SYDNEY • TAIPEI • TOKYO • WASHINGTON

